Audit Report




OIG-11-061
Management Letter for the Audit of the Department of the
Treasury’s Fiscal Years 2010 and 2009 Financial Statements


February 24, 2011




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             February 24, 2011


            MEMORANDUM FOR DANIEL TANGHERLINI
                           ASSISTANT SECRETARY FOR MANAGEMENT
                           AND CHIEF FINANCIAL OFFICER

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the Department of the
                                  Treasury’s Fiscal Years 2010 and 2009 Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury’s (Department) Fiscal Years 2010 and
            2009 financial statements. Under a contract monitored by the Office of Inspector
            General, KPMG LLP (KPMG), an independent certified public accounting firm,
            performed an audit of the financial statements of the Department as of
            September 30, 2010 and 2009 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG issued, and is responsible for, the accompanying
            management letter that discusses certain matters involving internal control over
            financial reporting and other operational matters that were identified during the
            audit, but were not required to be included in the auditors’ report.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Ade Bankole, Manager, Financial Audits at
            (202) 927-5329.

            Attachment
U.S. DEPARTMENT OF THE TREASURY
         FISCAL YEAR 2010
         Management Letter
        November 15, 2010
                         U.S. DEPARTMENT OF THE TREASURY
                                         Fiscal Year 2010
                                        Management Letter



                                        Table of Contents

                                                                               Page

Transmittal Letter                                                                1

       10-01: Consolidated Financial Statements Compilation                       3
       10-02: Budget Reconciliations                                              6
      10-03: Grants for Specified Energy Property in Lieu of Tax Credits          7
      10-04: Service Provider Reviews                                            10
      10-05: Financial Reporting Standards for Treasury’s Component Entities
             (Repeat Comment)                                                    11
      10-06: Access Controls                                                     12


Exhibit 1 – Status of Prior Year Management Letter Comments                      14
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036-3389




November 15, 2010

Inspector General
U.S. Department of the Treasury
Washington, D.C.

We have audited the consolidated financial statements of the U.S. Department of the Treasury
(Department/Treasury) as of and for the year ended September 30, 2010, and have issued our report
thereon dated November 15, 2010. Our report indicated that we did not audit the amounts included in the
consolidated financial statements related to the Internal Revenue Service (IRS) or the Office of Financial
Stability (OFS), both component entities of the Department. The financial statements of the IRS and the
OFS were audited by another auditor whose reports were provided to us.

In planning and performing our audit of the consolidated financial statements of the Department in
accordance with auditing standards generally accepted in the United States of America, we considered the
Department’s internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the Department’s internal control. Accordingly,
we do not express an opinion on the effectiveness of the Department’s internal control.
During our fiscal year (FY) 2010 audit of the Department’s consolidated financial statements, we, and the
other auditor, noted certain matters involving internal control and other operational matters that we
considered to be significant deficiencies under standards established by the American Institute of
Certified Public Accountants (AICPA). A deficiency in internal control exists when the design or
operation of a control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct misstatements on a timely basis. A significant
deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the Department’s financial statements will not be
prevented or detected and corrected on a timely basis.
Our consideration of internal control was for the limited purpose described above and would not
necessarily identify all deficiencies in internal control that might be significant deficiencies or material
weaknesses. In our Independent Auditors’ Report dated November 15, 2010, we reported the following
material weakness and significant deficiencies in the following areas involving internal control over
financial reporting:
Material Weakness

• Financial Systems and Reporting at the IRS (Repeat Condition)
•
Significant Deficiencies

•   Financial Management Practices at the Departmental Level (Repeat Condition)
•   Financial Accounting and Reporting at the OFS (Repeat Condition)
•   Information System Controls at the Financial Management Service (Repeat Condition)



                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
Detailed findings and recommendations to address the above material weakness and significant
deficiencies are not repeated within this document.

Although not considered significant deficiencies, we noted certain matters involving internal control and
other operational matters that are presented in the attachment for your consideration. These comments and
recommendations, all of which have been discussed with the appropriate members of the Department’s
management, are intended to improve internal control or result in other operating efficiencies. The matters
presented in this letter do not include internal control or operational matters that have been presented to
the management of the Department’s offices or operating bureaus that were audited separately by other
auditors.

Exhibit 1 provides the status of the seven comments included in our management letter arising from our
fiscal year 2009 audit. We have not considered the Department’s internal control since the date of our
report.

We appreciate the courteous and professional assistance that the Department personnel extended to us
during our audit. We would be pleased to discuss these comments and recommendations with you at any
time.

The Department’s written response to our comments and recommendations has not been subjected to the
auditing procedures applied in the audit of the consolidated financial statements, and accordingly, we
express no opinion on it.

This communication is intended solely for the information and use of the management of the Department,
the Department’s Office of Inspector General, the Office of Management and Budget, the Government
Accountability Office (GAO), and Congress and is not intended to be, and should not be, used by anyone
other than these specified parties.

Very truly yours,




                                                    2
                                  FISCAL YEAR 2010 COMMENTS


10-01: Consolidated Financial Statements Compilation

Improvement is needed in the processes and procedures followed by the Department of the Treasury
(Department/Treasury) in compiling its consolidated financial statements. While some policies and
procedures have been developed to assist with the compilation of consolidated financial statements, the
errors we continue to identify reflect the need for improvement in the knowledge of consolidated
financial statement compilation requirements and improved supervisory review. In addition, existing
written procedures are not sufficiently detailed for staff to follow so as to ensure the completeness and
accuracy of the amounts reported in the consolidated financial statements and related disclosures. The
following are examples of areas where issues were noted:

        Component Financial Statement Tie-outs
        Several instances were noted whereby amounts reported in the Department’s components’
        stand-alone audited financial statements or note disclosures did not agree to what was reported by
        the Department in its consolidated financial statements at year end.

        The Office of Accounting and Internal Control (AIC) within Treasury’s Office of the Deputy
        Chief Financial Officer (CFO) is responsible for:

        •   Establishing and maintaining financial policies that guide consolidated financial reporting
            throughout the Department
        •   Implementing internal controls to ensure the overall integrity of financial data reported at the
            consolidated level.

        Certain quality control procedures are conducted by AIC to ensure that component financial and
        other data is accurate and complete for inclusion in the consolidated financial statements. Data
        required for inclusion in the consolidated financial statements and related note disclosures are
        submitted by Treasury components to AIC, which is then incorporated into the consolidated
        financial statements and relevant note disclosures after certain data checks are processed by AIC.
        However, several discrepancies were noted in what was provided by these components to AIC, to
        what was reported in their stand-alone audited financial statements, and to what was reported in
        Treasury’s consolidated financial statements. In one such example, initial data required for Note
        26, Collection and Disposition of Custodial Revenue (Note 26), was submitted by the IRS to AIC.
        Subsequent to submission to AIC of initial Note 26 data, a formula error was identified by the
        IRS which resulted in a correction to the amounts reported between tax years, although the total
        of collections and refunds did not change. Although AIC was informed by IRS of the formula
        error, it did not follow up to ensure all corrections were processed as needed, and IRS amounts
        were not reconciled to the IRS stand-alone audited financial statements. Since AIC did not notice
        the changes in the supporting tax year amounts, these changes were not reflected in its year-end
        consolidated financial statements.

        Note Disclosures

        Errors were noted in the computation of the Reconciliation of Net Cost of Operations to Budget
        reconciliations (Reconciliation) which resulted in incorrect disclosures in Note 28, Reconciliation
        of Net Cost of Operations to Budget (Note 28), in the draft consolidated financial statements.


                                                     3
        Specifically, payments to the GSEs during fiscal year 2010, liability to the GSEs, and net cost
        amounts used in the computation of the Reconciliation were incorrect. This occurred because the
        on-top adjustments causing changes to these amounts were not properly incorporated when AIC
        compiled the respective component information for Note 28, nor did AIC check to ensure that on-
        top adjustments impacting this note were properly processed. In addition, we also noted that there
        was a lack of understanding by staff involved in preparing this Reconciliation of the relationship
        requirements between budget and cost and the related linkages in the Reconciliation to the
        various amounts reported in other sections of the consolidated financial statements.

        In addition, instances were noted whereby adequate support was not available nor requested by
        AIC for note disclosures included in the consolidated financial statements. For example, Note 31,
        Commitments and Contingencies, included disclosures for the Department’s commitments to
        Multilateral Development Banks (MDB) for callable capital. The fiscal year-end 2010 draft
        consolidated financial statements provided for our review reported prior year amounts for an
        MDB with respect to callable capital in Note 31. This disclosure was not questioned nor reviewed
        for accuracy and completeness by AIC. In addition, AIC neither followed-up with the component
        responsible to confirm the accuracy and completeness of the note nor requested supporting
        documentation until questioned and requested as part of the audit.

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish internal
controls according to standards prescribed by the Comptroller General and specified in the GAO’s
Standards for Internal Control in the Federal Government (Standards). The GAO Standards require that
internal controls be documented in management directives, administrative policies, or operating manuals;
transactions and other significant events be clearly documented; and information be recorded and
communicated timely with those who need it within a time frame that enables them to carry out their
internal control procedures and other responsibilities. The GAO defines “internal control” as an integral
component of an organization’s management that provides reasonable assurance that the following
objectives are achieved: effectiveness and efficiency of operations, reliability of financial reporting, and
compliance with applicable laws and regulations. The GAO Standards also identify the control
environment as one of the five key elements of control, which emphasizes the importance of
conscientiousness in management’s operating philosophy and commitment to internal control. These
standards cover controls such as human capital practices, supervisory reviews, policies, procedures,
monitoring, and segregation of duties.

OMB Circular No. A-123, Management’s Responsibility for Internal Control (A-123) states that
monitoring the effectiveness of internal control should occur in the normal course of business. In addition,
periodic reviews, reconciliations, or comparisons of data should be included as part of the regular
assigned duties of personnel. Periodic assessments should be integrated as part of management’s
continuous monitoring of internal control, which should be ingrained in the agency’s operations.

10-01 Recommendations

We recommend that the Department’s CFO, with input from the Director, AIC:

(1) Develop a process in conjunction with components’ management for receipt of draft/final audited
    financial statements at year end from all components subject to stand-alone audit.

(2) Require complete financial statement tie out at year end of component balances included in the
    consolidated financial statements to the respective Treasury components’ final and/or most recent
    draft financial statements.


                                                     4
(3) Develop specific policies and procedures for the preparation and review of the financial statement tie
    outs, and include detailed mapping for required references and cross-checks of all applicable
    consolidated financial statements and related note disclosures. Policies and procedures developed
    should also include guidance for incorporating on-top adjustments in the consolidated financial
    statements.

(4) Develop training for financial statement tie out requirements for all staff involved in the preparation
    of the consolidated financial statements to ensure there is adequate knowledge and understanding of
    the tie outs and account relationships throughout the consolidated financial statements.

(5) Develop a process for formal notification by components to AIC of any financial statement changes
    subsequent to release of component audited financial statement information to AIC, to ensure
    adequate follow-up on changes that may be needed to the consolidated financial statements. A copy
    of this notification should be provided to a supervisory-level Treasury official within AIC so that
    there is joint responsibility for follow-up and action.

(6) Enforce the procedures for supervisory review requirements over the consolidated financial statement
    compilation process, including required reviews of documentation supporting note disclosures.

(7) Require an experienced and knowledgeable Treasury official independent of the consolidated
    financial statement compilation process to conduct a final review of all financial statement tie outs,
    including review of on-top adjustments that need to be processed through the consolidated financial
    statements.

Management Response
(1) The Department already had a process in place to ensure AIC receives all stand-alone component
    level audited financial statements as soon as they are available. However, AIC will more closely
    manage the review over these component statements to ensure consistency with the Performance and
    Accountability Report ( PAR).

(2) The Department agrees with this recommendation and will require component financial statement tie
    out at year end of all material balances reported in the PAR. These tie outs will be performed using
    the component’s final audited statement or the latest draft received no more than five days prior to the
    PAR submission date.

(3) The Department agrees with this recommendation and will develop policies and procedures for
    component financial statement tie outs which will include appropriate cross-referencing. Policies and
    procedures around posting of top-sided adjustments are already included in other existing policy.

(4) The Department agrees with this recommendation and will provide training to staff on the process for
    component financial statement tie outs.

(5) The Department agrees with this recommendation and will develop a formal process to ensure all
    component financial statement changes, subsequent to the release of component stand-alone
    financials, are communicated to the appropriate AIC staff level.

(6) The Department agrees with this recommendation and will reevaluate the current review process and
    continue to reinforce the requirement for appropriate supervisory review procedures.



                                                     5
(7) The Department will ensure that a review of consolidated financial statement tie outs will be
    performed by well-trained individuals who understand how to properly agree financial statement data
    back to source documentation and to component entity stand-alone audited financial statements and
    related footnote disclosures for purposes of assuring the accuracy of the financial data.

10-02: Budget Reconciliations

Reconciliation of the Statement of Budgetary Resources to the SF-133, Report on Budget Execution and
Budgetary Resources

The fiscal year 2010 fourth quarter reconciliation of the SF 133, Report on Budget Execution and
Budgetary Resources (SF 133), to the fourth quarter Statement of Budgetary Resources (SBR)
reconciliation (SF 133 to SBR Reconciliation), for certain comparable budget line items, contained
significant discrepancies. In addition, the first version of the SF 133 to SBR Reconciliation provided for
audit revealed footing and cross-footing errors. Multiple versions of the fourth quarter SF 133 to SBR
Reconciliation provided subsequently for review continued to reflect significant discrepancies due to the
use of incorrect fourth quarter SBR amounts. Specifically, the final year-end SBR amounts were not used
by the Office of Performance Budgeting (OPB) during the preparation of the fourth quarter SF 133 to
SBR Reconciliation.

OMB Circular No. A-136, Financial Reporting Requirements, Sections II.4.6.5, 6, and 8 states, “The
resources reported on this statement shall agree with, and be reconciled to, the total budgetary resources
reported for the aggregate of all budget accounts on the SF 133... The status of budgetary resources
reported on this statement shall agree with, and be reconciled to, the total status reported for the aggregate
of all budget accounts on the SF 133...The outlays shall also agree with, and be reconciled to, the
aggregate of outlays reported on the SF 133 for the aggregate of all budget accounts, including
nonbudgetary financing accounts and the disbursements and collections reported to the Treasury
Department on a monthly basis (SF 224, Statement of Transactions; SF 1219, Statement of
Accountability; and SF 1220 Statement of Transactions) per Circular No. A-11.”

President’s Budget Reconciliation

OPB prepares the annual reconciliation of Treasury’s Budgetary Resources, Outlays, Offsetting Receipts,
and Obligations Incurred that is reported in the President’s Budget (PB) to comparable information
contained in Treasury’s SBR (PB Reconciliation). This is a required disclosure in Treasury’s consolidated
financial statements in accordance with Statement of Federal Financial Accounting Standards (SFFAS)
No. 7, Accounting for Revenue and Other Financing Sources. The PB Reconciliation is then provided to
AIC for final review and approval prior to inclusion in the Department’s consolidated financial
statements. Our review of the PB Reconciliation prepared for inclusion in the FY 2010 consolidated
financial statements revealed the following:

•   Sufficient management reviews were not performed on documentation provided to support the PB
    Reconciliation by either OPB or AIC.

•   Initial documentation provided to support the PB Reconciliation was not adequate or was inaccurate.
    For example, in several instances, the detailed analysis prepared by OPB for each Treasury
    component comparing the PB to the respective component’s SBR was either incorrect or not
    provided. In other instances, extracts from the PB for a component’s budget amounts extracted and



                                                      6
    included in the PB Reconciliation did not directly agree to amounts included in the detailed analysis
    provided by OPB in support of the PB Reconciliation. Further, a schedule (Offsetting Receipts
    Schedule) provided to support the offsetting receipts reported in the PB Reconciliation reflected a
    cross-footing error amounting to approximately $300 million.

OMB Circular No. A-123 states that monitoring the effectiveness of internal control should occur in the
normal course of business. In addition, periodic reviews, reconciliations, or comparisons of data should be
included as part of the regular assigned duties of personnel. Periodic assessments should be integrated as
part of management’s continuous monitoring of internal control, which should be ingrained in the
agency’s operations.

10-02 Recommendations
We recommend that the CFO, with input from the Directors of OPB and AIC:

(1) Strengthen current policies and procedures related to the quarterly SF 133 to SBR Reconciliation to
    provide more detailed guidance on the supervisory review process.

(2) Update policies and procedures to include the details of the required documentation to support the PB
    Reconciliation. Include samples of appropriate documentation and templates as guidance for future
    preparation of PB Reconciliations.

(3) Mandate a completion date for the PB Reconciliation. Since the PB is available in February annually,
    the PB Reconciliation should be completed within two months of availability of the PB.

Management Response

Current policies and procedures require supervisory review of the SF 133 to SBR Reconciliation, and
supervisory reviews were completed by both OPB and AIC. These reviews led to improvements in the
final reconciliation. OPB and AIC will continue to focus on reviewing the reconciliation and supporting
documentation. Current policies and procedures documents will be expanded to provide more detailed
guidance for the reviewer, details of required documentation, and a completion date for the PB
Reconciliation within two months of availability of the PB.

10-03: Grants for Specified Energy Property in Lieu of Tax Credits

The scope of responsibilities and reporting requirements within Treasury for management and monitoring
of the American Recovery and Reinvestment Act of 2009 (ARRA), Division B, Title I, Subtitle G, Other
Provisions, Section 1603 (Grants for Specified Energy Property in Lieu of Tax Credits) disbursements
(Section 1603 Program) should be clearly documented and communicated within Treasury’s Office of the
Fiscal Assistant Secretary (OFAS) and the IRS. While some steps have been taken to formalize
responsibilities and reporting requirements, further improvements are needed. Additionally, while OFAS
has developed a preliminary compliance monitoring plan (plan), and initial steps have been taken to
conduct monitoring, OFAS is not currently staffed to fully implement this compliance monitoring plan in
house and cannot do so without a significant increase in personnel and funding.

OFAS has been tasked with managing the Section 1603 Program. In general, the Section 1603 Program is
set up such that once the funds are disbursed, no restrictions are placed on the use of funds as they are a
partial reimbursement of costs already incurred by the grantee (taxpayer). However, taxpayers who
receive payments for property under Section 1603 are not eligible for the production or investment tax


                                                    7
credit under Sections 45 and 48 of the IRS code with respect to the same property for the taxable year of
the payment or subsequent years. In addition, any credit under Section 48 previously allowed with respect
to progress expenditures for the property is to be recaptured. This aspect of the program requires
involvement by the IRS. Therefore, OFAS needs to report payments made under the Section 1603
program to the IRS for purposes of IRS monitoring so that taxpayers do not both receive grant funds and
also claim the tax credit. OFAS therefore provides a quarterly listing of those taxpayers certifying that a
tax credit was taken on the specified property to the IRS. In addition, an annual listing of all grantees for
the current year is required to be submitted to the IRS for tax credit monitoring.

While communications have been noted from OFAS to IRS regarding submission of grantee names and
notification of various issues identified to date, no formal documentation or procedures exist that describe
OFAS and IRS responsibilities, and the structure and timelines for reporting and any follow-up
requirements with respect to the Section 1603 Program.

In addition, while some limited up-front steps have been implemented to assess the reasonableness of the
grantee requests for reimbursement under the Section 1603 Program, such as requiring an independent
CPA certification of expenses incurred for those claiming over a $1 million, agreed-upon procedures over
expenses for those claiming over $500,000, and reviews for eligibility by the Department of Energy’s
National Renewable Energy Laboratory, OFAS has not performed any reviews to determine if improper
payments have been made to recipients of the grants. Specifically, the documentation currently provided
by those requesting reimbursement under the Section 1603 Program, and the related reviews, will not
ensure that the expenses incurred are valid and thus meet criteria for reimbursement. For example, not all
costs are covered by the CPA certification or the agreed-upon procedures. Although OFAS has drafted a
plan for monitoring Section 1603 compliance, the plan states that OFAS does not have the necessary
resources to implement compliance monitoring of the Section 1603 program. This increases the risk of
improper payments.

10-03 Recommendations

We recommend that the Fiscal Assistant Secretary:

(1) Develop documentation such as a memorandum of agreement that specifies both OFAS and IRS
    responsibilities as well as the structure and timing of both reporting and any follow-up requirements.

(2) Perform a staffing resource needs assessment, with particular focus on the assistance needed to fully
    implement monitoring of the Section 1603 program. Once these needs are assessed, hire staff, or
    consider transferring suitable staff from other offices within Treasury to meet these immediate needs.

(3) Provide the training and guidance to staff as necessary to ensure that compliance monitoring
    conducted is effective in identifying improper payments.




                                                     8
Management Response
(1) The Department partially concurs with the auditors’ recommendation. The responsibility of OFAS to
    report Section 1603 recipients to IRS and the responsibility of IRS to ensure that those recipients do
    not also receive tax credits with respect to the same property are set forth in statute. See 26 U.S.C.
    Sections 48(d) and 605D. The timing and form of reporting is prescribed by IRS and not subject to an
    interagency agreement. Nevertheless, we concur that it would be beneficial to supplement internal
    procedures related to this reporting to ensure the process is fully documented and understood.

(2) and (3)

    The Department partially concurs with the auditor’s recommendations. Overall, we believe our
    current pre-award procedures and planned enhancements to the Section 1603 program, as described
    below, should minimize the risk of improper payments occurring, or where necessary, should identify
    improper payments so they can be recaptured by the IRS as part of their administration of the tax
    laws. However, we recognize that alternative procedures may be required in the interim until our
    planned enhancements are fully implemented.

    Recipients of Section 1603 funds have no ongoing responsibilities regarding the use of funds. Their
    postaward responsibilities are limited to ensuring that, for a period of five years, the property for
    which the funds were received remains qualified energy property. Treasury has established an
    electronic reporting process to monitor compliance with this requirement and to ensure appropriate
    action is taken in the event of noncompliance including, if appropriate, return of the funds to
    Treasury.

    Treasury has carefully considered conducting postaward audits or reviews of recipients to ensure the
    amount paid was appropriate, and generally believes that the risk of overpayment is being minimized
    without incurring the significant increase in staffing and cost that would be otherwise required by
    implementing postaward audits. The program manages this risk through several means. Before funds
    are awarded, a rigorous review process takes place. All applicants must document their costs, and
    those seeking payments in excess of $167,000 must submit an independent accountant’s certification
    attesting to all claimed costs. These certifications are generally conducted by large, reputable
    accounting firms with extensive experience in energy issues. Additionally, the Department of
    Energy’s technical review staff uses the considerable data and other resources available to them to
    compare claimed costs and design plans to costs for similar properties. Claimed costs which fall
    outside of a reasonable range are questioned, and the amount awarded is reduced when those costs are
    not substantiated. Furthermore, where the appropriateness of the claimed costs involves complex tax
    issues, input is sought from IRS counsel and determinations are based on that input.

    Treasury also is pursuing initiatives to strengthen postaward compliance monitoring over the
    program. For example, the IRS is initiating a compliance initiative project relative to the Section 1603
    program in FY 2011. This project is being designed to ensure, among other things, that Section 1603
    recipients have properly stated their cost basis for federal tax purposes. As part of this initiative, IRS
    will use the quarterly and annual data provided by OFAS to help identify taxpayers to review. In
    addition, OFAS has and will continue to identify applications of concern and refer them to IRS for
    consideration in their compliance efforts. In order to strengthen Treasury’s Section 1603 program
    compliance efforts, we are seeking a technical correction to the Section 1603 legislation that would
    authorize IRS to audit all Section 1603 recipients and treat any overpayments as tax liabilities. This
    would enable the IRS to use its full suite of collection tools to recapture any improper payments. This




                                                      9
    effort, combined with IRS’ planned initiative on Section 1603 compliance, is, in our view, the most
    efficient and effective means to further enhance our ability to prevent and reduce improper payments.

    Until these initiatives are fully implemented, OFAS, with the support of the DCFO, will pursue
    arranging with the IRS to conduct some level of postaward reviews for purposes of detecting
    improper payments. We will continue to assess the adequacy of Treasury staffing resources
    associated with the Section 1603 program based upon the significance of improper payment activity
    detected.

10-04: Service Provider Reviews

As a result of the Housing and Economic Recovery Act of 2008, the Department set up the Housing
Finance Authority New Issue Bond Program (NIBP) and the Temporary Credit Liquidity Program
(TCLP). A large portion of the administration of these programs is handled by third-party service
providers. The services provided by these service providers are specialized with respect to these
programs. As a result, the current service organization audit reports do not provide sufficient assurance
over the processes and controls related to the services and reports provided to Treasury. Given the unique
nature of the services provided, it is important for management to adequately design and implement
controls to address the completeness, existence, and accuracy of information and amounts provided by
these service organizations.

Based on our review of the process documentation and inquiry, we noted that management has certain
controls informally in place over these service providers. However, these controls are not documented and
were not systematically applied throughout fiscal year 2010. Existing controls include random spot
checks of reports provided and monthly meetings with these service providers.
The GAO Standards states “Internal control should generally be designed to ensure that ongoing
monitoring occurs in the course of normal operations. It is performed continually and is ingrained in the
agency’s operations. It includes regular, management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.”

10-04 Recommendation

We recommend that the CFO, with input from the Directors of the Office of Financial Management and
AIC, develop and implement policies and procedures, and controls (management review and
reconciliation) over the reports and services performed by these service providers.

Management Response

The Department agrees with the initial observation of the auditors that the controls over the service
provider (financial agent) were not sufficiently well formalized and the recommendation that the controls
should be strengthened. In response, Treasury had the agent prepare an independent risk assessment of the
processes used to provide service on the Housing Finance Agency program. This assessment provides
comfort that the activities being performed are being executed competently and accurately. Should any
indicators of problems arise, we will work to further strengthen these controls, as necessary. The audit
work of the internal controls is ongoing, and documentation of the continuing utilization of appropriate
controls will be provided by JP Morgan on an annual basis. They have provided documentation of the
controls in place, and there is no reason to believe that additional reconciliation on the part of the program
office would provide any further comfort.




                                                     10
10-05: Financial Reporting Standards for Treasury’s Component Entities (Repeat Comment)

The Department’s consolidated financial statements are prepared in conformity with accounting
principles prescribed by the Federal Accounting Standards Advisory Board (FASAB), the accounting
standards-setting body for the Federal Government, as recognized by the AICPA in October 1999.
However, certain components prepare their financial statements in accordance with accounting standards
prescribed by the Financial Accounting Standards Board (FASB), the private sector standards-setting
body, since the FASAB has allowed entities that issued financial statements prior to October 1999 using
FASB accounting to continue to do so. These component entities include the Bureau of Engraving and
Printing, the Office of Thrift Supervision, the Exchange Stabilization Fund, the Federal Financing Bank,
and the Community Development Financial Institutions Fund.

The use of a combination of generally accepted accounting principles (GAAP) by the Department and its
component entities complicates the preparation of the Department’s consolidated financial statements
since additional information required for Federal GAAP reporting must be developed, mapped, and
submitted to the Department’s data warehouse by component entities, and reviewed for compliance with
Federal GAAP and overall reasonableness by the Department’s accounting management. In addition, the
separately issued financial statements of the component entities using FASB accounting principles do not
adequately portray the importance of the budgetary process as it relates to Federal entities.

Private sector GAAP does not contemplate budgetary reporting and, therefore, components using this
basis of accounting do not prepare the SBR, although this statement is an integral part of the
Department’s consolidated financial statements, and must be prepared regardless of whether or not the
component receives appropriations from the U.S. Government. Moreover, information reported in the
Department’s SBR must be reconciled to enacted amounts in the PB and disclosed in the notes to the
Department’s consolidated financial statements. Considerable additional preparation is required to
develop and report this data at the Department level for components using private sector GAAP.

Additionally, private sector GAAP does not provide sufficient information regarding the costs of
programs and activities. The Statement of Net Cost required by Federal GAAP requires that costs and
offsetting earned revenues be presented by responsibility segments, with net costs identified for each of
the segments, in order to provide more meaningful information to evaluate the operating results of major
activities.

This matter has been reported since fiscal year 2004. The continued use of private sector GAAP by
certain component entities decreases the usefulness of information reported by these entities for users of
Federal financial statements and complicates the preparation of the Department’s consolidated financial
statements.

10-05 Recommendation

We recommend that the CFO, with input from the Director, AIC, work with those components following
FASB reporting standards to achieve conformance so that all reporting entities within the Department
prepare their financial statements in accordance with Federal GAAP in order to strengthen and
standardize financial accounting and reporting throughout the Department. If a component is statutorily
required to report on a different basis of accounting, then a separate set of financial statements should be
prepared by these entities to meet such requirements.




                                                    11
Management Response

The Department agrees with the observations of the auditors in terms of the complications that result from
certain Treasury component entities that use commercial GAAP in preparing their stand-alone financial
statements. We will continue to work with these Treasury components to influence them to transition
towards federal GAAP reporting in their stand-alone statements. We will also continue to monitor
FASAB’s ongoing work on this topic. However, we recognize that FASAB standards currently allow
component entities who have historically reported on a commercial GAAP basis to continue reporting in
the same manner.

10-06: Access Controls

We noted that 16 user accounts for the Departmental Offices (DO) Local Area Network (LAN) were
accessed after an individual separated from DO. Out of these 16 user accounts, 5 were accessed the
following day, 4 were accessed two days after separation, 3 were accessed three days after separation, 2
were accessed four days after separation, and 2 were accessed five and thirteen days after separation
respectively.

DO Information Technology Security Policy Handbook Version 1.0, Section 5.8.4 PS-4: Personnel
Termination, General Policy, states: The Manager (DO employee or contractor employee) in conjunction
with the System Owner (e.g., supervisor, team lead) and/or Contracting Officers’ Technical
Representative is responsible for:

•   Reviewing information systems/facilities access authorizations when personnel are reassigned or
    transferred to other positions within the organization
•   Communicating personnel termination to facilities
•   Removing system access for the exiting employee
•   Ensuring the following items are returned to DO:
    o All Treasury documentation and media
    o Treasury issued computers
    o All other Treasury resources (Blackberries, credit cards, keys, badges, etc.)

The Purpose subsection states that “Terminated or reassigned employees/contractors should have access
privileges removed and should no longer have access to Treasury resources.” Section 6.1.2 AC-2:
Account Management, in AC-2(e) states: System administrators shall remove roles from account users
who have separated.

Management explained that individuals were completing their exit process after their official separation
date and that requests for extension of LAN access were previously handled verbally. This includes
coming into the office to finish cleaning out their office, logging into the system to transfer work products
to peers and supervisors, and then turning in all of their government equipment.

By not adhering to its policy to disable and collect all required items on the separating individual’s last
day, Treasury is allowing individuals who are no longer employees access to Treasury resources, and this
could compromise access to Treasury’s sensitive information.




                                                     12
10-06 Recommendation

We recommend that the Acting Chief Information Officer reinforce the Department’s policy to disable
user accounts so that access privileges are removed as of the individual’s last day (separation date).

Management Response

The Department agrees with the finding and recommendation. It is Treasury’s general practice to delete
network access on the individual’s last day of employment with the Department. However, there are
exceptions when a former employee requests additional time to close out or transfer work in progress to
other employees. Formal procedures have been revised and tested for all requests concerning extension of
DO LAN access past an employee’s departure date. All extensions are adjudicated and approved on a
case-by-case basis by the Chief Information Security Officer within the CIO’s office. A principal
determining factor is whether or not access directly benefits Treasury and if the request for extended
access is being made by an appropriate supervisory level of the terminated employee. Access is limited to
those specific files and folders needed by the terminated employee during the extension period. Extended
access may only be granted to those terminated employees who transfer to other agencies within the
Federal Government. Terminated employees who are no longer Federal Government employees or retired
employees are prohibited from being granted such extended access.




                                                   13
                                                                                    EXHIBIT 1

                           U.S. DEPARTMENT OF THE TREASURY
                                         Fiscal Year 2010
                                     Management Letter Report
                        Status of Prior Year Management Letter Comments




Prior Year Comments                              Current Year Status
        Financial Reporting Standards for        This finding has not been corrected and is
09-01   Treasury’s Component Entities (Repeat    repeated in the current year as comment
        Comment)                                 10-05.
09-02   Opening Balances                         This finding has been corrected.


09-03   Intragovernmental Transactions and       This finding has been corrected.
        Activities

09-04   Reconciliation of the SBR to the SF-     This finding has been corrected.
        133, Report on Budget Execution and
        Budgetary Resources

09-05   Audit Logs                               This finding has been corrected.

09-06   Baseline Configurations                  This finding has been corrected.

09-07   Encryption                               This finding has been corrected.




                                                14
